No. 20-812
IN THE SUPREME COURT OF THE UNITED STATES
_________________
LISA M. FOLAJTAR, PETITIONER
v.
MERRICK B. GARLAND, ATTORNEY GENERAL, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 17th day of March 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 1,857 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
March 17, 2021

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 17, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0812
FOLAJTAR, LISA M.
MERRICK B. GARLAND, ATTORNEY GENERAL

JACK PARK
616-B GREEN STREET
GAINESVILLE, GA 30501
GAINESVILLE, GA 30501
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG
SAM SPIEGELMAN
CATO INSTITUTE
1000 MASS. AVE. NW
WASHINGTON, DC 20001
202-789-5242
SSPIEGELMAN@CATO.ORG
DAVID H. THOMPSON
COOPER & KIRK, PLLC
1523 NEW HAMPSHIRE AVENUE, NW
WASHINGTON, DC 20036
202-220-9600
DTHOMPSON@COOPERKIRK.COM
CODY J. WISNIEWSKI
MOUNTAIN STATES LEGAL FOUNDATION
2596 S. LEWIS WAY
LAKEWOOD, CO 80227
303-292-2021
CODY@MSLEGAL.ORG

